APPENDIX A

IVY

Case 20-4251, Document 49, 06/22/2021, 3124070, Pagel of 1

MANDATE

E.D.N.Y.-Bklyn.
18-cv-5568
Kuntz, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 1st day of June, two thousand twenty-one.
Present:
Rosemary S. Pooler,
Raymond J. Lohier, Jr.,
Circuit Judges,
Lewis A. Kaplan,
District Judge.*
Denworth Davidson,
Petitioner-Appellant,
20-4251

v.
Thomas R. Griffin, Barbara Underwood,
Respondents-Appellees.

Appellant moves for a certificate of appealability and in forma pauperis status. Upon due
consideration, it is hereby ORDERED that the motion is DENIED and the appeal is DISMISSED
because Appellant has not “made a substantial showing of the denial of a constitutional right.” 28
U.S.C. § 2253(c); see also Miller-El v. Cockrell, 537 U.S. 322, 327 (2003) (discussing certificate
of appealability standard).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court
A True Copy
Catharine O’Hagan W
United States Cousrfl

ik

SECOND

w ©com! Circuit

mm
* Judge Lewis A. Kaplan, of the United States District Court for the Southern District of New
York, sitting by designation.

MANDATE ISSUED ON 06/22/2021

"T

APPENDIX B

, ,

Case l:18-cv-05568-WFK Document 15 Filed 12/04/20 Page 1 of 12 PagelD #: 1582

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
•X

DENWORTH DAVIDSON,
Petitioner,
DECISION & ORDER
18-CV-5568 (WFK)

v.
THOMAS R. GRIFFIN,
Respondent.

X
WILLIAM F. KUNTZ, II, United States District Judge: Denworth Davidson (“Petitioner”),
proceeding pro se, brings this petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254
(the “Petition”), challenging his conviction for Minder in the First Degree, Criminal Possession of
a Weapon in the Second Degree, and Conspiracy in the Fourth Degree. Pet. at 1, ECF No. 1.
Petitioner claims violation of his due process right to a fair trial under the 14th Amendment due to
prosecutorial misconduct and the trial court’s erroneous admission of evidence and jury charge,
and ineffective assistance of trial counsel for failure to object to these errors. Pet. at 6-9. For the
reasons discussed below, the Petition is DENIED.

BACKGROUND
I.

Conviction and Sentencing
On October 7,2004, around 11:30 A.M., Petitioner and Jerome Fletcher drove to

Titlebaum Cleaners in Astoria, Queens. Aff. of William H. Branigan in Opp’n to Pet. If 3, ECF
No. 8 (“Branigan Aff”). Fletcher previously worked at Titlebaum and knew Bruce Levy, the
owner, paid his employees in cash around this time. Id. Fletcher waited in his car as Petitioner
shot and killed Levy and then took thousands of dollars in payroll envelopes from him. Id.
Petitioner and Fletcher split the proceeds from the robbery. Id.
Petitioner was arrested and charged with Murder in the First Degree, in violation of N.Y.
Penal Law § 125.27(l)(a)(vii); Murder in the Second Degree, in violation of N.Y. Penal Law
§ 125.25(3); two counts of Robbery in the First Degree, in violation of N.Y. Penal Law
§ 160.15(1), (2); Criminal Possession of a Weapon in the Second Degree, in violation of N.Y.
Penal Law § 265.03; Criminal Possession of a Weapon in the Third Degree, in violation of N.Y.
1

Case l:18-cv-05568-WFK Document 15 Filed 12/04/20 Page 2 of 12 PagelD #: 1583

Penal Law § 265.02(4); and Conspiracy in the Fourth Degree, in violation of N.Y. Penal Law
§ 105.10(1). Id.]|4. Prior to trial, Petitioner moved to suppress statements made to the police
and the Honorable Robert J. Hanophy of the New York State Supreme Court (the “trial court”)
held a suppression hearing. Id.]j 5. In a post-hearing memorandum, Petitioner argued there was
a violation under Payton v. New York, 445 U.S. 573 (1980) as he was unlawfully arrested in his
home, and thus his statements must be suppressed. Id. The State opposed this motion. Id. On
July 26, 2006 the trial court held there was no Payton violation as Petitioner’s mother allowed
the police inside the home. Id. ^ 6. Further, the trial court held Petitioner was properly read his
Miranda warnings, subsequent statements were made voluntarily, and statements made before
Petitioner had his Miranda warning were spontaneous and therefore admissible. Id.
After five days of deliberations, Petitioner’s first trial ended in a hung jury. Pet.’s Mem.
of Law in Supp. at 2, ECF No. 1-2 (“Pet. Mem.”). After a second trial, a jury convicted
Petitioner of first-degree murder, second-degree weapon-possession, and fourth-degree
conspiracy charges. Branigan Aff. T| 49. On January 9, 2008, the trial court sentenced Petitioner
to a prison term of life without parole on his first-degree murder conviction, a determinate term
of imprisonment of fifteen years, plus five years’ post-release supervision, on his second-degree
weapon-possession conviction, and an indeterminate prison term of from two to four years on his
fourth-degree conspiracy conviction, and ordered all sentences to run concurrently. State Court
Record (“R.”) at 9-8:101-02.

1 As the State Court Record is comprised of multiple documents without consistent pagination, in this Opinion &
Order page citations to the State Court Record refer to the ECF docket entry followed by the PDF page number of
the document to which the citation refers.
2

Case l:18-cv-05568-WFK Document 15 Filed 12/04/20 Page 3 of 12 PagelD #: 1584

II.

Post-Conviction Activity
In March 2015, Petitioner through counsel filed a brief in the New York State Appellate

Division, Second Department (“Appellate Division”). R. at 9:1-98. Petitioner claimed: (1) the
first-degree murder verdict was against the weight of the evidence, R. at 9:53-57; (2) the
prosecutor improperly cross-examination of Petitioner regarding prior bad acts and argued a
propensity for crime during summation and the court improperly charged the jury regarding
Petitioner’s testimony, R. at 9:58-81; (3) this misconduct denied Petitioner a fair trial, R. at
9:82-91; and (4) excessive sentence, R. at 9:92-96. In a footnote, Petitioner also claimed trial
counsel was ineffective for failing to object to the allegedly improper questions, summation
comments, and court charge. R. at 9:80-81 n.26. On July 2, 2015, the State filed a respondent’s
brief. R. at 9:99-180. In February 2016, Petitioner filed a pro se supplemental brief arguing his
statement to the police was involuntary as he was tricked into signing it, the State failed to
corroborate his confession, and conviction was against the weight of the evidence. R. at 9-1:4174. On June 8,2016, the State filed a brief in response. R. at 9-1:7-40.
On November 16, 2016, the Appellate Division affirmed Petitioner’s conviction holding
the hearing court properly denied Petitioner’s motion to suppress statements, the weight of the
evidence claims were meritless and unpreserved, the State improperly impeached Petitioner yet
this did not deprive Petitioner of a fair trial, jury charge claims were meritless and unpreserved,
and all remaining claims were meritless. People v. Davidson, 144 A.D.3d 938, 939 (N.Y. App.
Div. 2d Dep’t 2016).
On February 16,2017, Petitioner sought leave to appeal the decision to the New York
State Court of Appeals, R. at 11:6-9, which was denied on July 10, 2017. People v. Davidson,
85 N.E.3d 102 (N.Y. 2017).

3

Case l:18-cv-05568-WFK Document 15 Filed 12/04/20 Page 4 of 12 PagelD #: 1585

On October 4, 2018, Petitioner filed the instant Petition for a writ of habeas corpus in this
Court. ECF No. 1. Respondent filed opposition on March 29, 2019. ECF No. 8. Petitioner filed
his reply to the State’s opposition on June 11,2019. ECF No. 14.
DISCUSSION
I.

Legal Standard
The Court’s review of the Petition is governed by the Antiterrorism and Effective Death

Penalty Act of 1996 (“AEDPA”), 28 U.S.C. § 2254. A federal habeas court may only consider
whether a person is in custody pursuant to a state court judgment “in violation of the Constitution
or laws or treaties of the United States.” 28 U.S.C. § 2254(a). AEDPA requires federal courts to
apply a “highly deferential standard” when conducting habeas corpus review of state court
decisions and “demands that state-court decisions be given the benefit of the doubt.” Renico v.
Lett, 559 U.S. 766,773 (2010) (internal quotation marks and citations omitted).
Strickland v. Washington, 466 U.S. 668 (1984), sets forth the relevant federal law
governing ineffective assistance of counsel claims. In reviewing a state court’s application of the
Strickland standard, “[t]he pivotal question is whether the state court’s application of the
Strickland standard was unreasonable. This is different from asking whether defense counsel’s
performance fell below Strickland's standard. Were that the inquiry, the analysis would be no
different than if, for example, [the district court] were adjudicating a Strickland claim on direct
review of a criminal conviction in a United States [District [C]ourt.” Harrington v. Richter, 562
U.S. 86,101 (2011). However, as an initial matter, the Court may evaluate whether defense
counsel’s performance was sufficient under Strickland, as a finding defense counsel met the
Strickland standard is dispositive of Petitioner’s AEDPA claim for ineffective assistance of
counsel. Moreno v. Smith, 06-CV-4602,2010 WL 2975762, at *15 (E.D.N.Y. July 26,2010)
(Matsumoto, J.).
4

.

Case l:18-cv-05568-WFK Document 15 Filed 12/04/20 Page 5 of 12 PagelD #: 1586

Under Strickland, in order to prevail on an ineffective-assistance-of-counsel claim,
a defendant must meet a two-pronged test: (1) he “must show that counsel’s
performance was deficient,” 466 U.S. at 687, 104 S.Ct. 2052, so deficient that, “in
light of all the circumstances, the identified acts or omissions were outside the wide
range of professionally competent assistance,” id. at 690, 104 S.Ct. 2052; and (2)
he must show that “the deficient performance prejudiced the defense,” id. at 687,
104 S.Ct. 2052, in the sense that “there is a reasonable possibility that, but for
counsel’s unprofessional errors, the result of the proceeding would have been
different,” id. at 694, 104 S.Ct. 2052.
Bennett v. United States, 663 F.3d 71, 84 (2d Cir. 2011). “It is the accused’s ‘heavy burden’ to
demonstrate a constitutional violation under Strickland.” Moreno, 2010 WL 2975762 at *15
(quoting United States v. Gaskin, 364 F.3d 438, 468 (2d Cir. 2004)).
Under the first prong, “[jjudicial scrutiny of counsel's performance must be highly
deferential.... [A] court must indulge a strong presumption that counsel’s conduct falls within
the wide range of reasonable professional assistance; that is, the defendant must overcome the
presumption that, under the circumstances, the challenged action might be considered sound trial
strategy.” Strickland, 466 U.S. at 689 (internal quotation marks and citations omitted).
Under the second prong, to establish prejudice, “[t]he defendant must show that there is a
reasonable probability that, but for counsel’s unprofessional errors, the result of the proceeding
would have been different. A reasonable probability is a probability sufficient to undermine
confidence in the outcome. In making the determination whether the specified errors resulted in
the required prejudice, a court should presume, absent challenge to the judgment on grounds of
evidentiary insufficiency, that the judge or jury acted according to law.” Id. at 694.
Because the Court of Appeals and the trial court adjudicated Petitioner’s claims and
properly considered the federal jurisprudence of Strickland, the Court’s “review is extremely
deferential: a state court’s determination that a claim lacks merit precludes federal habeas relief

5

Case l:18-cv-05568-WFK Document 15 Filed 12/04/20 Page 6 of 12 PagelD #: 1587

so long as fairminded jurists could disagree on the correctness of the state court’s decision.”
Chrysler v. Guiney, 806 F.3d 104,118 (2d Cir. 2015) (internal quotation marks omitted).
II.

Due Process Claims
“The appropriate standard of review for a claim of prosecutorial misconduct on a writ of

habeas corpus is ‘the narrow one of due process, and not the broad exercise of supervisory
power.”’ Floyd v. Meachum, 907 F.2d 347, 353 (2d Cir. 1990) (quoting Darden v. Wainwright,
477 U.S. 168,181 (1986)). Petitioner contends the prosecutor committed misconduct by (1)
arguing Petitioner had a propensity to commit gunpoint robberies and other crimes, (2) crossexamining Petitioner about his prior bad acts, (3) conveying to the jury her disbelief in
Petitioner’s testimony, and (4) in her summation accusing defense counsel of racism and offering
unsworn testimony. Pet. Mem. at 39. On direct appeal, the Appellate Division rejected
Petitioner’s arguments concerning the prosecutor’s allegedly improper conduct as follow:
The defendant correctly contends that the People failed to provide adequate notice
to him of their intention to impeach his credibility based on a prior uncharged bad
act, and that the Supreme Court erred in overruling his objection and allowing
cross-examination about the prior bad act. Nevertheless, under the circumstances
of this case, the error did not deprive the defendant of his right to a fair trial.
. . . His challenge to the prosecutor’s conduct is unpreserved for appellate review
and, in any event, the challenged conduct did not deprive the defendant of a fair
trial.
Davidson, 144 A.D.3d at 939 (internal citations omitted).
Petitioner also contends the jury charge deprived him of a fair trial in violation of his due
process. Pet. Mem. at 56-59. The Appellate Division rejected this argument stating, Petitioner’s
“challenge to the jury charge is unpreserved for appellate review and, in any event, without
merit.” Davidson, 144 A.D.3d at 939.

6

Case l:18-cv-05568-WFK Document 15 Filed 12/04/20 Page 7 of 12 PagelD #: 1588

A.

Petitioner’s Claims Are Partially Barred

Respondent argues the prosecutorial misconduct claim and jury charge claim are
procedurally barred under the adequate and independent state ground doctrine because the state
court held these claims were not preserved for appellate review. Mem. Opp’n to Pet. at 23-43,
ECF No. 8 (“Mem. Opp.”); See, e.g., Harris v. Reed, 489 U.S. 255, 264 n.10 (1989).
[FJederal habeas review is precluded as long as the state court explicitly invokes a
state procedural bar rule as a separate basis for decision. The rule that an adequate
and independent finding of procedural default will bar federal habeas review of the
federal claim applies, absent a showing of cause for the default and resulting
prejudice or a demonstration that failure to consider the federal claim will result in
a fundamental miscarriage ofjustice.
Velasquez v. Leonardo, 898 F.2d 7, 9 (2d Cir. 1990) (internal quotations and citations omitted).
Failure to timely object to alleged instances of prosecutorial misconduct and the jury charge
constitutes an adequate and independent basis for barring habeas review. Id.
“Federal courts may address the merits of a claim that was procedurally defaulted in state
court only upon a showing of cause for the default and prejudice to the petitioner,” Bossett v.
Walker, 41 F.3d 825, 829 (2d Cir. 1994), or if Petitioner establishes the existence of a
fundamental miscarriage ofjustice, Murray v. Carrier, All U.S. 478, 496 (1986). “Cause may
be demonstrated with a showing that... the procedural default is the result of ineffective
assistance of counsel.” Bossett, 41 F.3d at 829. “[A] procedurally defaulted ineffectiveassistance-of-counsel claim can serve as cause to excuse the procedural default of another habeas
claim only if the habeas petitioner can satisfy the ‘cause and prejudice’ standard with respect to
the ineffective-assistance claim itself.” Edwards v. Carpenter, 529 U.S. 446,450-51 (2000).
Unless Petitioner has a meritorious claim of ineffective assistance of trial counsel, he cannot use
trial counsel’s errors as “cause” to excuse the procedural default. As discussed below,
Petitioner’s claim of ineffective assistance of trial counsel fails. Plaintiff s “failure to
7

Case l:18-cv-05568-WFK Document 15 Filed 12/04/20 Page 8 of 12 PagelD #: 1589

demonstrate cause obviates the need for the Court to undertake an analysis of whether any
purported cause proved prejudicial” regarding his defaulted claims of prosecutorial misconduct
and faulty jury charge. Jamison v. Smith, 94-CV-3747, 1995 WL 468279, *3 (E.D.N.Y. July 26,
1995) (Block, J.).
Petitioner also fails to demonstrate a refusal to consider these claims on the merits would
result in a fundamental miscarriage ofjustice. Murray, All U.S. at 486. The fundamental
miscarriage ofjustice exception is reserved only for those cases “where a constitutional violation
has probably resulted in the conviction of one who is actually innocent.” Id. at 496. Petitioner
can establish this exception only by demonstrating with “clear and convincing evidence that but
for constitutional error, no reasonable juror would have found petitioner guilty.” Washington v.
James, 996 F.2d 1442, 1447 (2d Cir. 1993). Petitioner has failed to make such a demonstration
and cannot assert a fundamental miscarriage ofjustice will occur. Therefore, Petitioner’s
prosecutorial misconduct claim and jury charge claim are barred from this Court’s review.
B.

Cross Examination With Prior Uncharged Bad Acts

Petitioner’s remaining due process claim—the prosecutor asked him about a prior
uncharged bad act without adequate notice—was preserved for appellate review and thus not
procedurally barred. Petitioner argues the prosecution improperly cross-examined Petitioner
about an intimate relationship with his fourteen-year-old girlfriend when he was in his twenties.
Pet. Mem. at 48. While Petitioner is correct the prosecution acted improperly in this regard, the
Court must give deference to the ruling of the Appellate Division finding:
The defendant correctly contends that the People failed to provide adequate notice
to him of their intention to impeach his credibility based on a prior uncharged bad
act, and that the Supreme Court erred in overruling his objection and allowing
cross-examination about the prior bad act. Nevertheless, under the circumstances
of this case, the error did not deprive the defendant of his right to a fair trial.

8

,

,,

Case l:18-cv-05568-WFK Document 15 Filed 12/04/20 Page 9 of 12 PagelD #: 1590

Davidson, 144 A.D.3d at 939 (internal citations omitted). Further, Petitioner’s argument is based
in a violation of a state court rule, N.Y.C.P.L. § 240.43. A violation of state court rules does not
merit habeas relief unless it renders Petitioner’s trial fundamentally unfair. Warren v. Miller, 78
F. Supp. 2d 120, 135 (E.D.N.Y. 2000) (Wexler, J.). “Federal courts reviewing evidentiary
matters may issue a writ of habeas corpus only if the petitioner demonstrates that the alleged
evidentiary error violated a constitutional right and that the error ‘was so extremely unfair that its
admission violates fundamental conceptions ofjustice.’” Jones v. Conway, 09-CV-6045, 2011
WL 1356751, at *2 (W.D.N.Y. Apr. 4, 2011)
Petitioner has not shown the prosecutor’s misconduct of failing to provide prior notice
before cross-examining Petitioner regarding his consensual relationship with an underage
girlfriend made Petitioner’s murder trial fundamentally unfair. Accordingly, his claim regarding
prior bad acts is dismissed.
III.

Petitioner’s Ineffective Assistance of Counsel Claim Does Not Warrant Habeas
Relief
Petitioner contends trial counsel was ineffective for failure to object to prosecutorial

misconduct. Pet. Mem. at 67-70. Specifically, Petitioner argues the prosecutor committed
misconduct when she (1) argued Petitioner had a propensity to commit gunpoint robberies and
other crimes, (2) cross-examined Petitioner about his prior bad acts, (3) conveyed to the jury her
disbelief in Petitioner’s testimony, and (4) in her summation accused defense counsel of racism
and offered unsworn testimony. Pet. Mem. at 39. In a footnote Petitioner’s appellate counsel
argued on appeal in state court trial counsel’s failure to object to allegedly improper acts
discussed above “rose to the ineffective assistance of counsel... as there was simply no strategic
reason not to object to the prosecutor’s improper tactics or not to request appropriate charges

9

(

Case l:18-cv-05568-WFK Document 15 Filed 12/04/20 Page 10 of 12 PagelD #: 1591

central to the defense case.” R. at 9:80-81. The Appellate Division denied this claim in stating
“defendant’s remaining contentions are without merit.” Davidson, 144 A.D.3d at 939.
Where, as here, the “state court has already rejected an ineffective-assistance claim, a
federal court may grant habeas relief if the decision was ‘contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined by the Supreme
Court of the United States.”’ Yarborough v. Gentry, 540 U.S. 1, 5 (2003) (quoting 28 U.S.C.
§ 2254(d)(1)). Petitioner must show the state court’s application of the governing Federal law,
was not only erroneous, but objectively unreasonable. Id.
A. Failure to Object to Prosecutorial Misconduct
Petitioner argues trial counsel erred in failing to object to the prosecutor’s misconduct in
cross-examination and summation. The Court agrees much of the prosecutor’s conduct was not
exemplary. However, the Court cannot find the trial counsel’s failure to object amounted to
constitutionally ineffective assistance. First, it is possible counsel made a strategic decision not
to object in order to avoid drawing undue attention. See, e.g., Quinones v. Miller, l-CV-10752,
2003 WL 21276429, at *50 n.78 (S.D.N.Y. June 3, 2003) (Peck, Mag. J.) (collecting cases),
report and recommendation adopted, 2005 WL 730171, at *1 (S.D.N.Y. Mar. 31, 2005) (Pauley,
J.); Buehl v. Vaughn, 166 F.3d 163, 176 (3d Cir.) (“Because the [objectionable] statements were
fleeting,... trial counsel may have wished to avoid emphasizing what might have gone
relatively unnoticed by the jury.”) (internal quotations omitted). Second, having thoroughly
reviewed the record, it is apparent defense counsel’s failure to object did not prejudice Petitioner.
In the context of the entire trial, the prosecutorial misconduct did not reach the level of
“egregious misconduct.” See Donnelly v. DeChristoforo, 416 U.S. 637, 647-48. Given the
strength of evidence against Petitioner, including his written confession, a witness identification

10

Case l:18-cv-05568-WFK Document 15 Filed 12/04/20 Page 11 of 12 PagelD #: 1592

in court, and phone records corroborating his statement, there is no reasonable likelihood a
properly-timed objection would have made a difference in the outcome of the trial.
B. Failure to Object to Jury Charge
Petitioner contends trial counsel’s failure to object to the court’s allegedly deficient
charge to the jury constituted ineffective assistance of counsel. Pet. Mem. at 69-70.
Specifically, Petitioner complains the charge incorrectly instructed the jury to “carefully very
scrutinize” Petitioner’s testimony, did not state the prior conviction was not evidence of
Petitioner’s guilty or dispositive of a tendency to commit crimes, and did not state the jury had to
find “beyond a reasonable doubt” Petitioner was guilty. Id. at 70.
Petitioner has pointed the Court to no case law indicating the jury charge was incorrect.
The state court found Petitioner’s ineffective assistance claim meritless. Davidson, 144 A.D.3d
at 939. This court cannot deem the state court’s finding to be an “objectively unreasonable”
application of Strickland. Petitioner did not establish failure to object to the charge “fell below
an objective standard of reasonableness” measured under “prevailing professional norms.”
Strickland, 466 U.S. at 688. Further, Petitioner did not establish such a charge was improper
under state law, thus it was reasonable for defense counsel not to object to it.

11

*

N

Case l:18-cv-05568-WFK Document 15 Filed 12/04/20 Page 12 of 12 PagelD #: 1593

CONCLUSION
Petitioner’s petition for a writ of habeas corpus is DENIED in its entirety. A certificate
of appealability shall not issue. See 28 U.S.C. § 2253. The Clerk of the Court is directed to
serve notice of entry of this Order on all parties and to close the case.

SO ORDERED

S/ WFK
HON. WILLIAM F. KUNTZ, II
UNITED STATES DISTRICT JUDGE
Dated: December 4,2020
Brooklyn, New York

12

V

$

J

APPENDIX C

.#
r

m

People v. Davidson, 29 N.Y.3d 1091 (2017)
85 N.E.3d 102, 63 N.Y.S.3d 7 (Table)

July 10,2017
29 N.Y.3d 1091
(The decision of the Court of Appeals of New
York is referenced in the North Eastern Reporter
and New York Supplement in a table entitled
“Applications for Leave to Appeal - Criminal.”)
Court of Appeals of New York

Synopsis
2d Dept: 144 A.D.3d 938,41 N.Y.S.3d 553 (Queens)

Opinion

DiFiore, C.J.

People

Denied.

V.

Denworth Davidson

All Citations

29 N.Y.3d 1091, 85 N.E.3d 102, 63 N.Y.S.3d 7 (Table)
End of Document

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

\

*

APPENDIX D

'i m %
People v Davidson, 144 A.D.3d 938 (2016)
41 N.Y.S.3d 553, 2016 N.Y. Slip Op. 07674

rS] New York

c

sLOfficial Reports

144 A.D.3d 938,41 N.Y.S.3d
553, 2016 N.Y. Slip Op. 07674

**1 The People of the State
of New York, Respondent,
V

Denworth Davidson, Appellant.
Supreme Court, Appellate Division,
Second Department, New York
161/05, 2008-00971
November 16,2016

CITE TITLE AS: People v Davidson
Seymour W. James, Jr., New York, NY (Nancy E. Little of
counsel), for appellant, and appellant pro se.
Richard A. Brown, District Attorney, Kew Gardens, NY
(John M. Castellano, Johnnette Traill, Nicoletta J. Caferri,
Laura T. Ross, and William H. Branigan of counsel), for
respondent.
Appeal by the defendant from a judgment of the Supreme
Court, Queens County (Hanophy, J.), rendered January 9,
2008, convicting him of murder in the first degree, criminal
possession of a weapon in the second degree, and conspiracy
in the fourth degree, upon a jury verdict, and imposing
sentence. The appeal brings up for review the denial, after
a hearing, of that branch of the defendant's omnibus motion
which was to suppress his statements to law enforcement
officials. *939
Ordered that the judgment is affirmed.
Contrary to the defendant’s contention in his pro se
supplemental brief, the hearing court properly denied that
branch of his omnibus motion which was to suppress
statements he made to law enforcement officials. The
defendant's initial statement to law enforcement officials
at the police station, made before Miranda warnings were
End of Document

given (see Miranda v Arizona, 384 US 436 [1966]), was
spontaneous and not the product of custodial interrogation or
its functional equivalent (seePeople v Wilson, 132 AD3d 786,
786 [2015]; People v Latimer, 75 AD3d 562,563 [2010]). The
defendant's remaining statements to law enforcement officials
were made after he knowingly and intelligently waived his
Miranda rights (see People v Marsden, 130 AD3d 945, 947
[2015]; People v Latimer, 75 AD3d at 563).
The defendant contends that the evidence was legally
insufficient to support his conviction of murder in the first
degree since the People failed to prove that he acted with
intent to kill the victim. This contention is unpreserved for
appellate review because the defendant, in moving for a trial
order of dismissal, failed to specifically challenge the element
of intent to kill (see CPL 470.05 [2]; People v Powell, 125
AD3d 1010,1011 [2015]). In any event, viewing the evidence
in the light most favorable to the prosecution (see People v
Contes, 60 NY2d 620, 621 [1983]), we find that it was legally
sufficient to establish the defendant's guilt of this crime
beyond a reasonable doubt. Moreover, upon our independent
review pursuant to CPL 470.15 (5), we are satisfied that the
verdict of guilt of this crime was not against the weight of the
evidence (see People v Romero, 7 NY3d 633 [2006]).
**2 The defendant correctly contends that the People failed
to provide adequate notice to him of their intention to impeach
his credibility based on a prior uncharged bad act, and that the
Supreme Court erred in overruling his objection and allowing
cross-examination about the prior bad act (see People v Slide,
76 AD3d 1106, 1108 [2010]; People v Montoya, 63 AD3d
961, 963 [2009]). Nevertheless, under the circumstances of
this case, the error did not deprive the defendant of his right
to a fair trial.
The defendant’s challenge to the jury charge is unpreserved
for appellate review and, in any event, without merit.
His challenge to the prosecutor's conduct is unpreserved
for appellate review and, in any event, the challenged
conduct did not deprive the defendant of a fair trial. The
defendant's remaining contentions are without merit. Rivera,
J.P., Leventhal, Roman and LaSalle, JJ., concur. *940

Copr. (C) 2021, Secretary of State, State of New York
© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

WESTtAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

